Appendix A

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appea
Tenth Circuit

FOR THE TENTH CIRCUIT

April 13, 2021
Christopher M. Wolpert
Clerk of Court

HAZHARA. SAVED,
Plaintiff - Appellant,
v.

■i

LIEUTENANT VIRGINIA PAGE,
Sterling Correctional Facility; CAPTAIN
MICHAEL TIDWELL, Sterling
Correctional Facility; SERGEANT
HRADECKY, Sterling Correctional
Facility; JOHN DOE, 1, C/O Sterling
Correctional Facility; JOHN DOE, 2, C/O
Sterling Correctional Facility,

No. 20-1138
(D.C.No. 1:16-CV-02712-WJM-NRN)
(D. Colo.)

Defendants - Appellees.

ORDER AND JUDGMENT*

Before TYMKOVICH, Chief Judge, BALDOCK and EID, Circuit Judges.

Hazhar A. Sayed is a pro se Colorado inmate who appeals the district court’s grant
of summary judgment for failure to exhaust his First and Eighth Amendment claims.
Exercising jurisdiction under 28 U.S.C. § 1291, we affirm.

* After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument. This order and judgment is not binding
precedent, except under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.
PLAINTIFF'S
EXHIBIT

A

I
This action arose from an altercation between Sayed and several staff members
of Colorado’s Sterling Correctional Facility (S.C.F.). According to the amended
complaint, Sayed had previously lodged a grievance against Lt. Virginia Page.1 As
recounted by Sayed, on May 2, 2015, Capt. Michael Tidwell summoned Sayed to
S.C.F.’s control center, ostensibly to discuss the grievance, but when he arrived,
Tidwell struck him in the eye and accused him of being a snitch. Sgt. Robert
Hradecky then tackled him and both officers and others beat him while Page watched
but did not intervene. Sayed alleged that during the fight, Tidwell willfully and
intentionally broke his little finger, declaring, “We’re even now.” R., Vol. 1 at 37
(internal quotation marks omitted). Tidwell later announced over the prison intercom
that Sayed was a federal informant, he was serving a sentence for sexual assault, and
he had a fake mittimus. He averred that after making the announcement, Tidwell
turned to him and said, “See how we deal with snitches in S.C.F.” Id. (internal
quotation marks .omitted). Much of the physical altercation was captured on video,
but there is no audio either of the incident or the alleged intercom announcement.2
Sayed later brought this suit, alleging defendants violated his First and Eighth
Amendment rights by assaulting him in retaliation for filing the grievance against

1 Defendants inform us that Lt. Virginia Page was incorrectly identified as
Lt. Page Virginia. We have corrected our caption and refer to her accordingly.
2 Sayed was convicted on two counts of assault for his role in the melee.
2

Page. Defendants moved to dismiss under Fed. R. Civ. P. 12(b)(6) based on qualified
immunity, but the district court denied the motion, and a panel of this court affirmed,
see Sayed v. Virginia, No. 17-1445 (10th Cir. July 31, 2018). Upon returning to the
district court, defendants moved for summary judgment, arguing, among other things,
that Sayed failed to exhaust his administrative remedies. A magistrate judge agreed
and recommended granting the motion for lack of exhaustion.3
Over Sayed’s objections, the district court adopted the magistrate judge’s
recommendation and granted summary judgment to defendants on exhaustion grounds.
The court determined that Sayed filed grievances on May 8, 2015, and October 18, 2016,
but these grievances failed to properly exhaust his claims. The court reasoned that the
May 8 grievance sought different relief than that sought in Sayed’s amended complaint—
viz., the May 8 grievance requested physical therapy for his hand and transfer out of
administrative segregation back into the general prison population, while the amended
complaint sought damages and a declaratory judgment that defendants violated his First
and Eighth Amendment rights. As for the October 18 grievance, the court determined
that Sayed failed to specifically object to the magistrate judge’s determination that the
grievance was untimely. Accordingly, the court reviewed only for clear error and found
none.

3

The magistrate judge also determined that Sayed’s Eighth Amendment claim
was barred by Heck v. Humphrey, 512 U.S. All (1994), and that the video of the
incident did not support Sayed’s version of events to create a fact issue. The district
court declined to adopt those portions of the magistrate judge’s report and
recommendation, and those issues are not before us.
3

Sayed moved the district court to alter or amend the judgment, but before the
court ruled on the motion, he filed his notice of appeal. The district court
subsequently denied the motion, but Sayed did not amend his notice of appeal. Thus,
that ruling is not before us. See Fed. R. App. P. 4(a)(4)(B)(ii).
II
We review de novo the district court’s grant of summary judgment for failure
to exhaust. Tuckel v. Grover, 660 F.3d 1249, 1251 (10th Cir. 2011). “Summary
judgment is appropriate when there is no genuine issue of material fact and the
movant is entitled to judgment as a matter of law.” Id. (internal quotation marks
omitted).
The Prison Litigation Reform Act (PLRA) states, “No action shall be brought
with respect to prison conditions under section 1983 of this title, or any other Federal
law, by a prisoner confined in any jail, prison, or other correctional facility until such
administrative remedies as are available are exhausted.” 42 U.S.C. § 1997e(a). This
“language is mandatory.” Ross v. Blake, 136 S. Ct. 1850, 1856 (2016) (internal
quotation marks omitted). “Even when the prisoner seeks relief not available in
grievance proceedings, notably money damages, exhaustion is a prerequisite to suit.”
Porter v. Nussle, 534 U.S. 516, 524 (2002). Moreover, the PLRA requires “proper
exhaustion.” Woodford v. Ngo, 548 U.S. 81,93 (2006). “The level of detail
necessary in a grievance to comply with the [prison’s] grievance procedures will vary
from system to system and claim to claim, but it is the prison’s requirements, and not

4

the PLRA, that define the boundaries of proper exhaustion/* Jones v. Bock, 549 U.S.
199, 218 (2007).
On appeal, Sayed does not discuss his October 18 grievance, so any issue
regarding that grievance is waived. See Sawyers v. Norton, 962 F.3d 1270, 1286
(10th Cir. 2020) (“Issues not raised in the opening brief are deemed abandoned or
waived.” (internal quotation marks omitted)).
Regarding the May 8 grievance, Sayed offers two arguments, both of which
are unavailing. First, he contends it was unnecessary to seek the same relief in his
grievance and in his amended complaint because the grievance process permits, but
does not require, inmates to specify the relief they seek. But the governing
regulatory provision, Colorado Department of Corrections (CDOC) Administrative
Regulation (Admin. Reg.) 850-04 § IV.D.6, expressly states that a grievance “shall
address only one problem or complaint and include a description of the relief
requested.” R., Vol. 1 at 285 (emphasis added). This provision plainly requires an
inmate to include in the grievance a description of the relief requested. Indeed, the
next section of the regulation, § IV.D.7, states that if an inmate fails to request a
remedy, the remedy is waived: “A substantive issue or remedy may not be added at a
later step if it has not been contained in each previous step of that particular
grievance. . . . Failure to renew [the] requested relief in subsequent steps shall be
deemed a waiver of [the] requested remedy.” R., Vol. 1 at 285 (emphasis added).
Moreover, § IV.D.9.b, which establishes how grievances must be submitted for
review, requires that a “grievance shall clearly state the basis for the grievance and
5

the relief requested in the space provided on the form.” R., Vol. 1 at 285 (emphasis
added).
These provisions clearly state that an inmate waives any remedy he does not
request. The implication for Sayed is that if his May 8 grievance failed to include a
request for damages and declaratory relief, he waived those remedies and failed to
exhaust his claims. That is exactly what happened.
The May 8 grievance described Sayed’s version of the altercation, alleging that
Tidwell kicked and struck him. Sayed averred that he sustained contusions,
abrasions, and lacerations, and he asserted the assault violated his First, Eighth, and
Fourteenth Amendment rights. He then identified the specific relief he was seeking:
Remedy, 1) I am asking for immediate need for physical therapy or
other follow-up medical treatment to be evaluated by a medical
practitioner with expertise in the treatment and restoration and function
of broken hand and a rib; and 2) Immediately release Mr. Sayed from
Punitive Segregation and place him in general population, with
restoration of all rights and privileges.
Id. at 261. Nowhere did Sayed indicate that he sought damages or declaratory relief.
Consequently, he waived those remedies and failed to properly exhaust his claims.
Attempting to avoid this conclusion, Sayed points to another provision of
S.C.F.’s grievance process, which he says makes it optional for an inmate to request a
remedy in his grievance. Specifically, he cites CDOC Admin. Reg. 850-04 § III.J,
which defines “Remedy” as a “response, action, or redress requested by the offender
grievant. . . which may include modification of facility policy, restoration of or
restitution for property, or assurance that abuse will not recur.” R., Vol. 1 at 282
6

(emphasis added). Sayed contends the word “may” in this definition is permissive
and indicates that an inmate can, but need not, specify a particular remedy in his
grievance.
We disagree. The definition simply describes the scope of relief available to
an inmate, noting three examples of the type of relief that “may” be granted. It does
not, however, give an inmate the option of requesting a remedy in his grievance.
Sayed also relies on Spruill v. Gillis, 372 F.3d 218, 233 (3d Cir. 2004), in
which the Third Circuit held that an inmate was not required to include a request for
damages in his grievance because the prison’s grievance process did not mandate the
inclusion of a damages request in the grievance. Spruill is not controlling, however,
because CDOC’s administrative process governs this case. And in any event, the
Third Circuit has since recognized that the relevant prison grievance process at issue
in Spruill was amended to require that damages be sought in the grievance, and,
therefore, an inmate who failed to include a request for damages in his grievance (as
Sayed did) defaulted his claim for money damages. See Wright v. Sauers,
729 F. App’x 225, 227 (3d Cir. 2018) (unpublished).
Sayed’s second argument concerning the May 8 grievance also is unavailing.
He contends it would have been futile to request damages in his grievance because
the governing prison regulations expressly exclude damages as an available remedy.
See R., Vol. 1 at 282 (CDOC Admin. Reg. 850-04 § III.J) (“[Damages for pain and
suffering, and exemplary or punitive damages[,] are not remedies available to
offenders.”). Nevertheless, “Congress has mandated exhaustion clearly enough,
7

regardless of the relief offered through administrative procedures.” Booth v.
Churner, 532 U.S. 731, 741 (2001). There is no futility exception to the exhaustion
requirement, even if a prison “has no power to decree relief,” id. at 741 n.6 (ellipsis
and internal quotation marks omitted), and even if money damages are not available
through the prison’s grievance process, see Porter, 534 U.S. at 524. Sayed failed to
exhaust his claims, and the district court was correct to dismiss them.
Ill
The judgment of the district court is affirmed. Sayed’s motion to proceed
without prepayment of costs and fees is granted. The Clerk’s Office is directed to
file the Reply Brief, which was considered in determining this appeal.
Entered for the Court
Allison H. Eid
Circuit Judge

8

Case l:16-cv-02712-WJM-NRN Document 195 Filed 03/09/20 USDC Colorado Page 1 of 13

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge William J. Martinez
Civil Action No. 16-CV-2712-WJM-NRN
HAZHAR A. SAVED,
Plaintiff,
v.
LT. PAGE VIRGINIA, Sterling Corr. Facility,
CAPT. MICHAEL TIDWELL, Sterling Corr. Facility,
SGT. HRADECKY, Sterling Corr. Facility, and
UNKNOWN JOHN DOE 1, C/O Sterling Corr. Facility, and
UNKNOWN JOHN DOE 2, Sterling Corr. Facility,
Defendants.

ORDER ADOPTING IN PART DECEMBER 3, 2019 RECOMMENDATION OF
UNITED STATES MAGISTRATE JUDGE AND GRANTING MOTION
FOR SUMMARY JUDGMENT

On November 3, 2016, Plaintiff Hazhar Sayed (“Sayed”), proceeding pro se
brought this action against Defendants Lieutenant (ret.) Virginia Page, Captain Michael
Tidwell, and Sergeant Robert Hradecky (collectively, “Defendants”) alleging
deprivations of his First and Eighth Amendment rights. (ECF Nos. 1 & 11.)
This matter is now before the Court on the December 3, 2019 Recommendation
of United States Magistrate Judge N. Reid Neureiter (“Recommendation”) (ECF
No. 180) that Defendants’ Motion for Summary Judgment (“Motion”) (ECF No. 126) be
granted. The Recommendation is incorporated herein by reference. See 28 U.S.C.
§ 636(b)(1)(B); Fed. R. Civ. P. 72(b).
For the reasons explained below, Sayed’s Objection (ECF No. 181) is overruled,

PLAINTIFF'S
EXHIBIT

Case l:16-cv-02712-WJM-NRN Document 195 Filed 03/09/20 USDC Colorado Page 2 of 13

the Recommendation is adopted in part, and sum mary judgment is granted in favor of
Defendants.
I. BACKGROUND
A.

Factual History
The followings facts are undisputed unless attributed to a party or otherwise

noted.
At the time of the incident at the foundation of this lawsuit, Sayed was an inmate
at Sterling Correctional Facility (“SCF”). (ECF No. 180 at 2.) On April 17, 2015, Sayed
filed a grievance against Defendant Lieutenant Virginia Page. (ECF No. 170-1.)
On May 2, 2015, Defendant Captain Michael Tidwell ordered Sayed to the
vestibule area of his living pod at SCF to discuss the grievance. (ECF No. 180 at 2.)
Captain Tidwell, Lieutenant Page, and Sayed all walked down the hallway. (ECF
No. 126-1 at 29.) Eventually, there was an altercation between Sayed and Captain
Tidwell. (ECF No. 180 at 2.) Lieutenant Page, Defendant Sergeant Robert Hradecky,
and others responded to the altercation. (Id.) Captain Tidwell and Sayed were both
injured. (Id.) Sayed claims he suffered injury to his right eye and a broken pinky finger,
which later caused permanent injury to his right hand. (ECF No. 163 at 3.) Sayed also
claims that Captain Tidwell announced over the SCF speaker system that Sayed was a
sex offender and federal informant. (Id. at 4.) On May 4, 2015, Sayed was transferred
from SCF to the Colorado State Penitentiary. (ECF No. 180 at 2.) A jury later
convicted Sayed of third degree assault for the altercation with Captain Tidwell. (ECF

1 All ECF page citations are to the page number in the CM/ECF header, which does not
always match the document's internal pagination, particularly in exhibits.
2

Case l:16-cv-02712-WJM-NRN Document 195 Filed 03/09/20 USDC Colorado Page 3 of 13

No. 126-9 at 3.)
Sayed filed two sets of grievances related to the May 2 incident, first a set of
grievances filed beginning on May 8, 2015 (“May 8 Grievances”) (ECF No. 126-6 at
1-4), and then another set of grievances filed beginning on October 18, 2016 (“October
18 Grievances”) (id. at 5-8).

1.

May 8 Grievances

On May 8, 2015, Sayed filed a Step 1 grievance claiming that Captain Tidwell
and other correctional officers assaulted him even though he was not violating any
prison rules or acting disruptively, and thereby violated his First, Eighth, and Fourteenth
Amendment rights. (Id. at 1.) As a remedy, Sayed sought physical therapy or other
medical treatment, and immediate release from segregation and a return to the general
population. (Id.) A grievance responder found that Sayed’s request for medical
treatment had already been granted. (Id.) He denied Sayed’s request for a change in
housing status because placement was in accordance with prison policy and Sayed’s
offender classification. (Id.)
Sayed then filed a Step 2 grievance reiterating that Captain Tidwell broke his
hand and announced that Sayed was a snitch. (Id. at 2.) Sayed again requested
release from segregation. (Id.) His grievance was again denied because the
responding grievance coordinator “reviewed the video of the incident” and found that
Sayed “violently, and without provocation, attacked a staff.” (Id.)
Sayed pursued a Step 3 grievance, reiterating the same constitutional violation,
and requesting the same remedy. (Id. at 3.) On July 17, 2015, Grievance Officer

3

Case l;16-cv-02712-WJM-NRN Document 195 Filed 03/09/20 USDC Colorado Page 4 of 13

Anthony DeCesaro responded, stating that the subject of Sayed’s
grievance—classification and placement in segregation—“is not an issue which the
grievance process is designed to address." (Id. at 4.) DeCesaro concluded that
“[bjecause this [grievance process] is not a valid method for review of your issue, you
have not exhausted your administrative remedies. This is the final administrative action
in this matter.” (Id.)
Indeed, Department of Corrections (“DOC”) Administrative Regulation 850-04
(“AR 850-04”), which sets forth the grievance procedure used by Sayed, states that the
procedure may not be used to seek review of inmate classification. (ECF No. 126-10 at
4.) Instead, DOC maintains that Administrative Regulation 600-01, which sets forth the
policy for offender classifications, governs challenges to an offender’s classification.
(ECF No. 126 at 26; see ECF No. 170-3.)
2.

October 18 Grievances

On October 18, 2016, Sayed filed another Step 1 grievance claiming that he was
assaulted and intentionally injured by Captain Tidwell. (ECF No. 126-6 at 5.) He also
complained that he had requested physical therapy, but had not received any. (Id.) As
a remedy, he requested that he “never be subject to these conditions again” and that he
receive physical therapy as directed by his doctor on July 30, 2015. (Id.)
AR 850-04 requires that a Step 1 grievance “must be filed no later than 30
calendar days from the date the offender knew, or should have know, of the facts given
rise to the grievance.” (ECF No. 126-10 at 8.) Thus, a grievance responder denied
Sayed’s request as untimely because both the May 2015 incident in which Sayed’s
hand was broken, and the denial of physical therapy in July 2015, were outside the 304

Case l:16-cv-02712-WJM-NRN Document 195 Filed 03/09/20 USDC Colorado Page 5 of 13

day time period in which to submit a grievance. (ECF No. 126-6 at 5.)
At Step 2, Sayed repeated his request to never be subject to the same
conditions again and for physical therapy. (Id. at 6.) Sayed also raised concerns about
co-payments for medical services. (Id.) A grievance responder advised Sayed to
submit a kite for medical care, and denied the grievance as untimely. (Id. at 6.)
At Step 3, Sayed once again requested medical treatment. (Id. at 7.) On
January 4, 2017, DeCesaro denied his grievance because the “action occurred 7/20/15
and you did not file the Step 1 until 10/18/16.” (Id. at 8.) Accordingly, DeCesaro
determined that Sayed “failed to follow the grievance procedure in this matter" and had
“not exhausted [his] administrative remedies.” (Id.)
B.

Procedural History
On November 3, 2016, Sayed filed this lawsuit pro se alleging deprivation of his

First and Eighth Amendment rights by SCF correctional officers. Defendants moved to
dismiss. (ECF No. 37.) U.S. Magistrate Judge Michael J. Watanabe entered a
Recommendation recommending that Defendants’ motion be granted. (ECF No. 55.)
Sayed objected, and the Court sustained that objection in part, finding that Defendants
were not entitled to qualified immunity, that Sayed had plausibly pled facts to state a
claim, and that Sayed’s conviction for assaulting Captain Tidwell was not a bar to
Sayed’s lawsuit under Heck v. Humphrey, 512 U.S. 477 (1994). (ECF No. 61.) The
Tenth Circuit affirmed this Court’s denial of qualified immunity, and dismissed the
remainder of the appeal for lack of jurisdiction. (ECF No. 94.)
On August 15, 2019, Defendants filed the instant Motion arguing for summary

5

Case l:16-cv-02712-WJM-NRN Document 195 Filed 03/09/20 USDC Colorado Page 6 of 13

judgment on three separate bases: (1) Sayed fails to establish a genuine issue of
material fact particularly in light of the video evidence; (2) Sayed’s claim are barred by
Heck because Sayed now states that he did not assault Captain Tidwell; and (3) Sayed
failed to exhaust his administrative remedies. (ECF No. 126.) Judge Neureiter agreed
on all three bases. (ECF No. 180.) On administrative exhaustion, Judge Neureiter
found that Sayed’s May 8 Grievances raised non-grievable issues and the October 18
Grievances were untimely. {Id. at 7.) He thus concluded that Sayed had failed to
comply with the grievance procedures and failed to exhaust his administrative
remedies. {Id. at 7-8.) Sayed timely objected to the Recommendation. (ECF
No. 181.)
II. LEGAL STANDARD
A.

Rule 72(b) Standard
When a magistrate judge issues a recommendation on a dispositive matter,

Federal Rule of Civil Procedure 72(b)(3) requires that the district judge “determine de
novo any part of the magistrate judge's [recommendation] that has been properly
objected to.” An objection to a recommendation is properly made if it is both timely and
specific. United States v. 2121 East 30th St, 73 F.3d 1057, 1059-60 (10th Cir. 1996).
An objection is sufficiently specific if it “enables the district judge to focus attention on
those issues—factual and legal—that are at the heart of the parties’ dispute.” Id.
at 1059. In conducting its review, “[t]he district judge may accept, reject, or modify the
[recommendation]; receive further evidence; or return the matter to the magistrate judge
with instructions.” Fed. R. Civ. P. 72(b)(3).

6

Case l:16-cv-02712-WJM-NRN Document 195 Filed 03/09/20 USDC Colorado Page 7 of 13

In considering the Recommendation, the Court is mindful of Sayed’s pro se
status, and accordingly reads his pleadings and filings liberally. Haines v. Kerner, 404
U.S. 519, 520-21 (1972); Trackweil v. United States Gov't, 472 F.3d 1242, 1243 (10th
Cir. 2007). The Court, however, cannot act as advocate for Sayed, who still must
comply with the fundamental requirements of the Federal Rules of Civil Procedure.
See Hall v. Bellmon, 935 F.2d 1106,1110 (10th Cir. 1991); see also Ledbetter v. City of
Topeka, Kan., 318 F.3d 1183, 1188 (10th Cir. 2003).
B.

Summary Judgment Standard
Summary judgment is warranted under Federal Rule of Civil Procedure 56 “if the

movant shows that there is no genuine dispute as to any material fact and the movant
is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a); see also Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248-50 (1986). Whether there is a genuine dispute
as to a material fact depends upon whether the evidence presents a sufficient
disagreement to require submission to the factfinder or, conversely, is so one-sided that
one party must prevail as a matter of law. Anderson, 477 U.S. at 251-52; Stone v.
Autoliv ASP, Inc., 210 F.3d 1132 (10th Cir. 2000). A fact is “material” if, under the
relevant substantive law, it is essential to proper disposition of the claim. Wright v.
Abbott Labs., Inc., 259 F.3d 1226, 1231-32 (10th Cir. 2001). An issue is “genuine” if
the evidence is such that it might lead a reasonable trier of fact to return a verdict for
the nonmoving party. Allen v. Muskogee, 119 F.3d 837, 839 (10th Cir. 1997).
In analyzing a motion for summary judgment, a court must view the evidence
and all reasonable inferences therefrom in the light most favorable to the nonmoving

7

Case l:16-cv-02712-WJM-NRN Document 195 Filed 03/09/20 USDC Colorado Page 8 of 13

party. Adler v. Wal-Mart Stores, Inc., 144 F.3d 664, 670 (10th Cir. 1998) (citing
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 587 (1986)). In
addition, the Court must resolve factual ambiguities against the moving party, thus
favoring the right to a trial. See Houston v. Nat’i Gen. Ins. Co., 817 F.2d 83, 85 (10th
Cir. 1987).
III. ANALYSIS
The Court need only address the administrative exhaustion issue, which is
dispositive of Sayed’s claim.
Defendants argue that Sayed failed to satisfactorily exhaust all available
administrative remedies. (ECF No. 126 at 23-26.) Judge Neureiter agreed, and
recommended granting the Motion. (ECF No. 180 at 8.)
Sayed did not object to the Recommendation’s conclusion that the October 18
Grievances were untimely, and thus were properly denied on procedural grounds. (See
ECF No. 180 at 7.) Because Sayed did not specifically object to Judge Neureiter’s
ruling with respect to the October 18 Grievances, the Court reviews that determination
for clear error, and finds none. See Bertolo v. Benezee, 2013 WL 1189508, at *1 (D.
Colo. Mar. 22, 2013) (“In the absence of a timely and specific objection, ‘the district
court may review a magistrate ... [judge’s] report under any standard it deems
appropriate’”) (quoting Summers v. Utah, 927 F.2d 1165, 1167 (10th Cir. 1991), aff’d,
601 F. App'x 636 (10th Cir. 2015).
Sayed did, however, timely and specifically object to that portion of the
Recommendation related to the May 8 Grievances, and thus the Court reviews de novo

8

Case l:16-cv-02712-WJM-NRN Document 195 Filed 03/09/20 USDC Colorado Page 9 of 13

whether Sayed failed to exhaust his administrative remedies with respect to the May 8
Grievances. (ECF No. 181 at 6-9.) Sayed argues that the May 8 Grievances complied
with the grievance procedure, and that he properly exhausted his administrative
remedies. (Id. at 7-9.) Specifically, he argues that “an inmate can and does exhaust
his administrative remedies even if the requested relief is unavailable.” (Id. at 8.)
The PLRA states that “[n]o action shall be brought with respect to prison
conditions under section 1983 of this title, or any other Federal law, by a prisoner
confined in any jail, prison, or other correctional facility until such administrative
remedies as are available are exhausted.” 42 U.S.C. § 1997e(a). “[Ejxhaustion is
mandatory under the PLRA and ... unexhausted claims cannot be brought in court.”
Jones v. Bock, 549 U.S. 199, 211 (2007); see Woodford v. Ngo, 548 U.S. 81, 85 (2006)
(describing exhaustion as mandatory); Booth v. Churner, 532 U.S. 731, 738 (“The
available remedy must be exhausted before a complaint under § 1983 may be
entertained.” (internal quotation marks omitted and alteration incorporated)). A “court
claim that was not alleged at the administrative level could not have been exhausted
there." Williams v. Wilkinson, 659 F. App’x 512, 515 (10th Cir. 2016). Under the PLRA:
failure to exhaust is an affirmative defense, and the burden of proof lies with the
defendant. Jones, 549 U.S. at 216; Roberts v. Barreras, 484 F.3d 1236, 1241 (10th
Cir. 2007).
The PLRA requires administrative exhaustion in part to provide the agency “an
opportunity to correct its own mistakes with respect to the programs it administers
before it is haled into federal court.” Woodford, 548 U.S. at 89. For example, the

9

Case l:16-cv-02712-WJM-NRN Document 195 Filed 03/09/20 USDC Colorado Page 10 of 13

Supreme Court has repeatedly stated that when a prisoner brings a constitutional claim
seeking monetary damages, the prisoner must first ask for monetary damages and
exhaust administrative remedies through the grievance procedure, even when
monetary damages are not available in the grievance process. Booth, 532 U.S. at
740-41; Woodford, 548 U.S. at 85. This directly suggests that there must be some
relationship between the administrative remedies sought in the grievance process and
the prayer for relief.
DOC denied Sayed’s Step 3 grievance, and expressly informed Sayed in that
denial that he had not exhausted his administrative remedies because he had not
pursued a "valid method of review” of the classification issue he raised. (ECF No. 1266 at 4.) Defendants contend that Sayed thus failed to exhaust his administrative
remedies because he had not pursued a valid method of review. (ECF No. 126 at 25;
ECF No. 188 at 7.)
The unavailability of relief through the grievance process is not why Sayed failed
to exhaust his administrative remedies. Indeed, in Booth, the Supreme Court held that
a prisoner must complete the grievance process, regardless of the relief offered through
administrative procedures. 532 U.S. at 741. “If the unavailability of the requested
remedy was sufficient to render a grievance unexhausted, the rule of Booth and
Woodford would be irrelevant—it would be impossible to exhaust a grievance where the
requested relief was not available.” Gandy v. Raemisch, 2014 WL 1292799, at *9 (D.
Colo. Mar. 31,2014). For example, had Sayed requested and been denied monetary
damages—another remedy unavailable under the grievance procedure—in his May 8

10

Case l:16-cv-02712-WJM-NRN Document 195 Filed 03/09/20 USDC Colorado Page 11 of 13

Grievances, he would have exhausted his administrative remedies with respect to such
monetary damages, and then could have brought a lawsuit to recover monetary
damages. See Booth, 532 U.S. at 741.
Rather, Sayed failed to exhaust his administrative remedies because he seeks
remedies in this lawsuit that he did not seek in his May 8 Grievances. Defendants hint
at this issue—failure to exhaust forms of relief available to Sayed and relevant to the
instant litigation—without fully understanding its import, in part because Defendants so
heavily rely on their erroneous interpretation of Sayed’s argument as raising the same
question as in Booth. {See ECF No. 188 at 7-8.) In the instant action, Sayed seeks
compensatory relief, a declaration that Defendants violated the First and Eighth
Amendments, nominal and punitive damages, and any other relief available. (ECF
No. 11 at 11.) Sayed’s May 8 Grievances did not seek any remedy for placement in
segregation; rather, the remedy sought was release from segregation. These are
plainly not the same, and did not give Defendants an opportunity to correct its alleged
mistakes. See Woodford, 548 U.S. at 89. Moreover, Sayed does not argue that his
placement in segregation was a continuation of the First Amendment retaliation against
him, or that his grievance should be read as a request that the facility stop retaliating
against him.
Because Sayed failed to pursue the remedies requested in his lawsuit at the
administrative level, the Court finds that he failed to properly exhaust his administrative
remedies. See Williams, 659 F. App’x at 515. Despite the availability of administrative
remedies that would have provided Sayed the relief he seeks in his lawsuit (see ECF

11

Case l:16-cv-02712-WJM-NRN Document 195 Filed 03/09/20 USDC Colorado Page 12 of 13

No. 126-10 at 2), Sayed did not seek a change in policy, assurance that the alleged
abuse would not recur, payment of restitution, or restoration of his property (see ECF
No. 126-6 at 1-3). In addition, Sayed never sought monetary damages in the May 8
Grievances, but now seeks such relief in his complaint.
Gandy is distinguishable and instructive. 2014 WL 1292799. In Gandy, the
court found that a plaintiff who sought remedies expressly prohibited by the grievance
procedure had indeed exhausted his administrative remedies, despite the unavailability
of the remedies sought. Id. at *9. Like Sayed, the Gandy plaintiff claimed that the
prison changed his conditions of confinement in retaliation for exercising his First
Amendment rights. See id. at *8. However, the Gandy plaintiff filed a grievance for
transferring him between facilities, and, as a remedy, asked for written acknowledgment
of the retaliation and reasonable compensation. Id. He also pursued monetary relief in
his lawsuit. Gandy v. Barber, Civ. No. 12-cv-3331 (D. Colo, filed March 4, 2013) ECF
No. 9 at 9. The Court thus found that the plaintiff had adequately exhausted his
administrative remedies. Gandy, 2014 WL 1292799, at *10. Sayed, by contrast, did
not seek remedies in the May 8 Grievances that he now seeks in his lawsuit.
Absent a connection between the remedies sought in the lawsuit and the
remedies sought in the May 8 Grievances, the Court finds that Sayed failed to exhaust
his administrative remedies. Accordingly, the Court adopts that part of the
Recommendation that recommends granting the Motion for failure to exhaust
administrative remedies. The Court need not consider the other bases for summary
judgment discussed in the Recommendation.

12

Case l:16-cv-02712-WJM-NRN Document 195 Filed 03/09/20 USDC Colorado Page 13 of 13

IV. CONCLUSION
For the reasons set forth above, the Court ORDERS as follows:

1.

The Magistrate Judge’s December 3, 2019 Recommendation (ECF No. 180) is
ADOPTED IN PART, as modified;

2.

Plaintiff’s Objection (ECF No. 181) is OVERRULED;

3.

Defendants’ Motion for Summary Judgment (ECF No. 126) is GRANTED;

4.

Plaintiff’s Objection to the Minute Order Granting Motion to Withdraw as Counsel
For Plaintiff (ECF No. 153) is OVERRULED as moot;

5.

Plaintiffs Motion to Exclude Evidence of Certain Grievances (ECF No. 164)
Plaintiff’s Motion in Limine to Exclude Evidence of Prior Conviction and Length of
Sentence (ECF No. 165), Plaintiff’s Motion to Exclude Evidence of Plaintiff’s
Other Lawsuits (ECF No. 172), and Plaintiff’s Motion to Supplement the Record
with a Complete Video-tape (ECF No. 183) are DENIED AS MOOT;

6.

The Final Trial Preparation Conference and Jury Trial in this matter are
VACATED;

7.

The Clerk of the Court shall enter judgment in favor of Defendants and against
Plaintiff, and terminate the case; and

8.

The parties shall bear their own costs.
Dated this 9th day of March, 2020.
BY THE COURT:
/

William J^Martmez
United States District Judge

13

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

April 27, 2021
Christopher M. Wolpert
Clerk of Court

HAZHAR A. SAYED,
Plaintiff - Appellant,
v.
LIEUTENANT VIRGINIA PAGE,
Sterling Correctional Facility, et al.,

No. 20-1138
(D.C.No. 1:16-CV-02712-WJM-NRN)
(D. Colo.)

Defendants - Appellees.
ORDER
Before TYMKOVICH, Chief Judge, BALDOCK, and EID, Circuit Judges.
Appellant's petition for rehearing is denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

PLAINTIFFS
EXHIBIT

c

f Exhibit ^

■i

COLORADO
Department of Corrections
Oftke of legal Service*
1250 Academy Park Lone, Suite 1400
Color ado Springs, CO 80910
P 719.226.4?36
Sti?t) 3 Grievance Office

August 22. 2019
RE: Gtievance 4'C-AV18/19-153176
Deat Mi. David Jennet #97839:
I have teviewed your Step 3 grievance that you filed with regard to medical issues with total
tight hip and knee replacement.
The Step 3 grievance that you filed in this matter is inconsistent with your Step 1 and/ot Step 2
grievances that wetc previously considered. The grievance procedure Is outlined in
Admirdslt alive Regulation 850-04. Only one issue may be addressed, per grievance. In AR
850-04 at D. 7. it states. “All Issues and remedies contained in the original grievance must be
incorporated into each subsequent step of the gtievance. Failure to renew each element of the
complaint and/or requested telief in subsequent steps shall be deemed n waivei of those
elements and/or requested remedy.”
The Step 1 ft 2 Remedies requests an appointment with the orthopedic surgeon, physical
therapy. However, the Step 3 Remedy requests financial compensation anti injunctive telief for
y DOC medical review system ."This isIwonsiMent.
The gtievance procedure is outlined in Administrative Regulation 850-04. In the definitional
(section titled Remedy, it states in pan that. “DOC employee, contract worker; or volunteer .
discipUnc/reprimand, damages for pain and suffering, and exemplary or punitive damages ate
not, icmedies available to offenders.” In your gtievance the remedy you seek is not available,
■ therefore this grievance is denied. A request for injunctive’telief is equivalent to
discipline/teprimand. A request fot financial compensation is not available.

'

rvou failed to follow the gtievance procedure in this matter, and failed to satisfactorily request ^
allowable letief; you hove not exhausted your administrative remedies. This is the final ?
administrative action in this matter/
Sincerely,___

Anthony A. DeCesaro
Grievance Officer
c.c: working file
grievance file

Jaieti Potts, Gnvwivfl I D<?*n Williams. E>.ecut»v»> Oticno*

f^LAINTIFF^^
■
EXHIBIT
I

t*
’ (HU? '

